HHS/OIG, Audit - "Review of Excessive Payments for Outpatient
Claims Processed by National Government Services for Calendar Years 2003 Through
2005:  California Providers," (A-09-07-00059)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Excessive Payments for Outpatient Claims
Processed by National Government Services for Calendar Years 2003 Through 2005:
California Providers," (A-09-07-00059)
February 19, 2008
Complete Text of
Report is available in PDF format (463 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether
Medicare payments of $50,000 or more (high-dollar payments) that National
Government Services made to hospitals for outpatient services were appropriate.  Of the 59 high-dollar payments that National Government Services made for
outpatient services for calendar years 2003 through 2005, 18 were appropriate.  The remaining 41 payments included overpayments totaling $3,463,740.  For all 41
claims, the hospitals inappropriately overstated the units of service,
occasionally in combination with incorrect procedure codes.  The hospitals have
already refunded the overpayments; comments we received from some hospitals
indicated that they were analyzing their billing systems and procedures and
would provide training and make system enhancements as appropriate.
Because National Government Services
has already recovered the overpayments from the hospitals and implemented a
Fiscal Intermediary Standard System edit to suspend high-dollar outpatient
claims for prepayment review, we have not included any recommendations in this
report.  National Government Services officials agreed with the results of
our audit.